No. ______
_______________
IN THE

Supreme Court of the United States
_______________
JAMES W. RICHARDS IV,
Petitioner,
v.
DEBORAH LEE JAMES,
SECRETARY OF THE AIR FORCE,
BRIAN S. GREENROAD,
COLONEL, COMMANDER,
AIR FORCE SECURITY FORCES CENTER,
D.L. HINTON,
COLONEL, COMMANDANT,
UNITED STATES DISCIPLINARY BARRACKS,
Respondents.
_______________
Application for Extension of Time to File
a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Armed Forces
_______________
MARK C. BRUEGGER
Counsel of Record
Senior Counsel
Appellate Defense Division
Air Force Legal
Operations Agency
United States Air Force
1500 West Perimeter Road
Suite 1100
Joint Base Andrews, MD
20762
(240) 612-4770
mark.c.bruegger.civ@mail.mil

No. ______
_______________
IN THE

Supreme Court of the United States
_______________
JAMES W. RICHARDS IV,
Petitioner,
v.
DEBORAH LEE JAMES,
SECRETARY OF THE AIR FORCE,
BRIAN S. GREENROAD,
COLONEL, COMMANDER,
AIR FORCE SECURITY FORCES CENTER,
D.L. HINTON,
COLONEL, COMMANDANT,
UNITED STATES DISCIPLINARY BARRACKS,
Respondents.
_______________
Application for Extension of Time to File
a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Armed Forces
_______________
To the Honorable John G. Roberts, Jr., Chief Justice of the United States:
Pursuant to Supreme Court Rules 13.5, 22, and 30.2, the Petitioner,
Lieutenant Colonel James W. Richards, respectfully requests a 40-day extension of
time, to and including July 9, 2019, to file a Petition for a Writ of Certiorari. In
support of this application, Petitioner states the following:

2

1. On February 21, 2013, a general court-martial sentenced Petitioner to a
dismissal, confinement for 17 years, and forfeiture of all pay and allowances. The
United States Air Force Court of Criminal Appeals (AFCCA) affirmed the findings
and sentence of Petitioner’s court-martial on May 2, 2016. On June 4, 2017, while
Petitioner’s appeal was pending review before the United States Court of Appeals for
the Armed Forces (CAAF), Petitioner filed a Petition for Extraordinary Relief in the
Nature of a Writ of Mandamus with the AFCCA. On July 13, 2017, the CAAF
rendered a decision in Petitioner’s case. On August 27, 2018, following this Court’s
denial of certiorari but prior to the AFCCA’s action on the mandamus petition, the
Secretary of the Air Force ordered Petitioner’s dismissal executed. On October 19,
2018, the AFCCA issued a decision on the mandamus petition. In that decision, the
AFCCA determined that jurisdiction existed to hear the writ, but denied the writ on
its merits. On December 6, 2018, Petitioner appealed the AFCCA decision to the
CAAF. On January 31, 2019, the CAAF ruled that it did not have jurisdiction to hear
the writ-appeal. On February 8, 2019, Petitioner timely moved for reconsideration,
which the CAAF denied on March l, 2019.
2. Attached to this application are copies of the CAAF’s initial decision, the
AFCCA’s decision on the writ-appeal, the CAAF’s ruling on the writ-appeal, and the
CAAF’s denial of reconsideration.
3. Because the CAAF granted review of his case, Petitioner respectfully
submits that this Honorable Court has jurisdiction under 28 U.S.C. § 1259(3).

3

4. This case presents an excellent vehicle to examine the jurisdictional scope
of Article I military courts as provided for by Congress in Articles 66 and 67, Uniform
Code of Military Justice (UCMJ), 10 U.S.C. §§ 866-67. Specifically, this case asks
whether the Executive Branch can divest jurisdiction from an Article I military court
of appeals over an extraordinary writ brought under the All Writs Act, 28 U.S.C. §
1651(a), after jurisdiction has vested under the UCMJ. Correspondingly, this Court
can determine whether the CAAF has gone too far in limiting its jurisdiction and the
jurisdiction of military appeals courts to hear appeals. This latter question falls on
the other end of the spectrum from Clinton v. Goldsmith, 526 U.S. 529, 119 S. Ct.
1538, 143 L. Ed. 2d 720 (1999), where this Court held the CAAF went too far in
asserting jurisdiction over cases. Given the CAAF’s recent trend in limiting its
jurisdiction, military inmates have been forced to seek relief in the Federal court
system and will continue to do so in increasing numbers. Consequently, the Federal
court system may soon find itself mired in military-specific issues and become the
final arbiter over countless military claims. This is not a fate envisioned by Congress,
which justifiably tasked the CAAF with the responsibility of maintaining uniformity
in military decisions.
5. Petitioner bases his request for an extension of time on his retention of new
counsel. The Air Force Appellate Defense Division recently assigned undersigned
counsel to represent Petitioner following previously assigned counsel’s separation
from active duty military service. The issues presented in this case are factually and
procedurally complex, and undersigned counsel was not involved in any of the

4

previous trial or appellate proceedings.

Undersigned counsel is currently

representing seventeen clients before the AFCCA and five clients before the CAAF,
and supervises the filings and caseloads of eight attorneys in the Appellate Defense
Division. Although undersigned counsel may be able to prioritize this case to a
degree, his other commitments prevent him from sufficiently assisting Petitioner in
this matter prior to May 30, 2019 – the due date for the Petition for a Writ of
Certiorari.
WHEREFORE, Petitioner respectfully requests 40 additional days for
undersigned counsel to familiarize himself with the relevant materials so that he can
assist Petitioner in preparing an appropriate petition for consideration by this
Honorable Court.
Respectfully Submitted,

MARK C. BRUEGGER

Senior Counsel
Air Force Appellate Defense Division
1500 West Perimeter Road, Suite 1100
Joint Base Andrews NAF, MD 20762-6604
Office: (240) 612-4770
E-Mail: mark.c.bruegger.civ@mail.mil

Filed on: May 20, 2019

5

UNITED STATES COURT OF APPEALS
FOR THE

ARMED FORCES

_______________

UNITED STATES
Appellee
v.
James W. RICHARDS IV, Lieutenant Colonel
United States Air Force, Appellant
No. 16-0727
Crim. App. No. 38346
Argued March 15, 2017—Decided July 13, 2017
Military Judge: Mark L. Allred
For Appellant: William E. Cassara, Esq. (argued); Major
Johnathan D. Legg, Major Thomas A. Smith, and Captain
Patrick A. Clary.
For Appellee: Major Mary Ellen Payne (argued); Colonel
Katherine E. Oler and Gerald R. Bruce, Esq. (on brief).

Judge SPARKS delivered the opinion of the Court, in
which Chief Judge ERDMANN, and Judges STUCKY,
RYAN, and OHLSON, joined.
_______________

Judge SPARKS delivered the opinion of the Court.
This case arises out of the conviction of Lieutenant Colonel James W. Richards IV (Appellant), contrary to his pleas,
of one specification of possession of child pornography and
five specifications of indecent acts with a male under sixteen
years of age, both in violation of Article 134, Uniform Code
of Military Justice (UCMJ), 10 U.S.C. § 934 (2012); and four
specifications of failing to obey a lawful order in violation of
Article 92, UCMJ, 10 U.S.C. § 892 (2012). A military judge,
sitting alone, sentenced Appellant to a dismissal, seventeen
years confinement, and forfeiture of all pay and allowances.
The convening authority approved the adjudged sentence.
Appellant raised numerous issues before the United
States Air Force Court of Criminal Appeals and, on May 2,
2016, the lower court affirmed the findings and sentence.
Appellant then filed a petition for review with this Court.
We granted review on the issue of whether the November 9,

United States v. Richards, No. 16-0727/AF
Opinion of the Court

2011, search authorization was overly broad in failing to
limit the dates of communications being searched. 1
Upon review of this issue, we agree with the lower court
that the November 9, 2011, search authorization was sufficiently particularized and that investigators did not exceed
the scope of that authorization in searching the electronic
devices in question. 2
Facts
In April 2011, the Air Force Office of Special Investigations (AFOSI) at Tyndall Air Force Base in Florida initiated
an investigation into Appellant based on notification from
the National Center for Missing and Exploited Children that
one of Appellant’s former “little brothers” 3 from the Big
Brothers Big Sisters program had alleged Appellant sexually
abused him between 1993 and 1997, prior to Appellant joining the Air Force. Several months into their investigation,
agents received permission to place a GPS tracking device
on Appellant’s car, through which they learned that on a
number of occasions he had signed a seventeen-year-old boy
onto Tyndall Air Force Base. Agents interviewed the boy,
AP, who told them he and Appellant had met online, developed a sexual relationship, and continued to communicate
1

Without briefs, the Court granted review of an issue addressing the constitution of the lower court. That issue is
moot per our holding in United States v. Dalmazzi, 76 M.J.
1, 3 (C.A.A.F. 2016). The exact issue granted was:
Whether the 9 November 2011 search authorization was overbroad in failing to limit the dates of
the communications being searched, and if so,
whether the error was harmless.
On May 11, 2017, Appellant filed two additional motions requesting that the Court consider whether Appellant’s counsel was
ineffective in failing to file in a timely manner Appellant’s additional issues pursuant to United States v. Grostefon, 12 M.J. 431
(C.M.A. 1982). These motions are denied. On May 24, 2017, Appellant filed a motion for leave to correct errata in a previous motion.
This motion is granted. On May 24, 2017, and May 25, 2017, Appellant filed two separate motions for leave to supplement the record. These motions are denied.
2

Children in the Big Brothers Big Sisters program are commonly
referred to as “little brothers” and “little sisters.”
3

2

United States v. Richards, No. 16-0727/AF
Opinion of the Court

online as their relationship evolved. Several weeks later AP
recanted the portion of his statement about himself and Appellant having a sexual relationship.
AFOSI coordinated with the local sheriff’s office who assumed the primary investigative role in Appellant’s relationship with AP. However, AFOSI agents did utilize information from AP’s statement to obtain a search authorization
for Appellant’s residence and person for items used to electronically communicate with AP, requesting the seizure of
“[a]ll electronic media and power cords for devices capable of
transmitting or storing online communications.” The affidavit accompanying the search request stated that AFOSI, in
tandem with the Bay County Sherriff’s Office, was investigating Appellant’s violation of a Florida statute “Computer
Pornography; Traveling to meet a minor.” 4 The affidavit detailed the investigation into Appellant’s relationship with
AP, including the fact that the sexual relationship had been
ongoing since approximately April 2011 with sexually explicit online communications starting about a year earlier. The
affidavit did not mention Appellant’s history or any potential allegations connected with the Big Brothers Big Sisters
program. 5 On November 9, 2011, agents seized a number of
electronic devices from Appellant’s home. The following day,
the Bay County Sherriff’s Office arrested Appellant and
seized all electronic devices on his person. Among the items
seized from Appellant himself was a personal laptop, which
was handed over to AFOSI on November 24, 2011.
AFOSI agents sent the electronic devices they had collected to the Defense Computer Forensic Laboratory (DCFL)
so that DCFL could extract data to be searched. The DCFL
The lower court summarized the relevant section of the Florida
statute as follows:
4

The Florida state statute defines “traveling to meet
a minor” as, inter alia, a person who travels within
the state in order to engage in an illegal sexual act
with a child under the age of 18 years after using a
computer online or Internet service to seduce, solicit, lure or entice the child to do so.
At one point, Special Agent Nishioka testified that he was
searching for communication between Appellant and AP or the
“little brothers.” However, there was no mention of communication
with “little brothers” in the warrant or affidavit.
5

3

United States v. Richards, No. 16-0727/AF
Opinion of the Court

application form required submission of both case background information and a copy of the search authority documentation. The case background information provided by
AFOSI agent Sara Winchester included the accusations of
the former “little brother” which formed the genesis of the
investigation and detailed how this led to the identification
of an investigation into Appellant’s relationship to AP and
the subsequent seizure of the electronic materials. Agent
Winchester requested that DCFL:
Search SUBJECT’s Cell Phones, laptop computers,
digital cameras and memory cards for all videos,
images and possible online communication. To include, but not limited to the following: any and all
information saved or maintained on SUBJECT’s
cellular telephones, laptop computers or hard
drives; all associated SIM cards, components, peripherals or other data, relating to the matter being
investigated.

Unfortunately, SA Winchester’s request did not clarify that
the “matter being investigated” was Appellant’s communication with AP between 2010 and 2011, not the earlier accusation by the “little brother.” DCFL created a mirror image of
the data on the devices and placed that data on a forensic
data extraction (FDE). As Mr. Kleeh, the forensics examiner,
described the extraction process, “it goes through the image
– the mirrored copy of the drive, it looks for those files, pictures, chat logs, Word documents, Internet history, and it
pulls them all out and throws them into a directory on a new
drive.”
The first batch of extracted data (FDE #1) was returned
to AFOSI on December 23, 2011, and around January 4,
2012, Special Agent Nishioka conducted a search of the data.
FDE #1 contained materials found on Appellant’s personal
laptop as well as from two seized loose hard drives. Agent
Nishioka described in his statement that “DCFL simply
dumped all pictures and on-line chats from these drives onto
one big drive for review.” Agent Nishioka plugged the FDE
into a stand-alone laptop and, utilizing a graphic user interface or GUI, opened the FDE in which all the materials extracted were arranged in folders and subfolders. He testified
that he worked through the FDE folders in the order they
were listed, beginning with the “pictures” folder. Agent
Nishioka stated that he started by going through the “at-

4

United States v. Richards, No. 16-0727/AF
Opinion of the Court

tributable” folder. He then moved on to the folders of
“unattributable” material. It appears that by using the term
“unattributable” Agent Nishioka was referring to what Mr.
Kleeh testified to as unallocated or deleted material. Mr.
Kleeh testified that unallocated materials are deleted files
that remain in the system but potentially without dates and
times attached.
While searching the unallocated pictures, Agent
Nishioka encountered an image that appeared to be child
pornography. He stopped his search and sought an additional authorization to search for child pornography. A search of
the remainder of FDE #1, pursuant to the additional authorization, turned up thousands of suspected child pornography
images. The discovery of child pornography on these devices
formed the basis for additional search authorizations, turning up more images which led to the charges of possessing
child pornography and indecent acts of which Appellant was
ultimately convicted.
At trial, Appellant moved to suppress the evidence derived from the November 9, 2011, search authorization because it was overbroad. The military judge denied Appellant’s motion. The scope and propriety of that initial search
authorization is now at issue in this appeal.
Discussion
“A military judge’s decision to admit evidence is reviewed
for an abuse of discretion.” United States v. Hills, 75 M.J.
350, 354 (C.A.A.F. 2016). “An abuse of discretion occurs
when we determine that the military judge’s findings of fact
are clearly erroneous or that he misapprehended the law.”
United States v. Clayton, 68 M.J. 419, 423 (C.A.A.F. 2010).
When we review a decision on a motion to suppress, we consider the evidence in the light most favorable to the prevailing party. United States v. Cowgill, 68 M.J. 388, 390
(C.A.A.F. 2010). We review de novo questions regarding
whether a search authorization is overly broad. United
States v. Maxwell, 45 M.J. 406, 420 (C.A.A.F. 1996). “Evidence derivative of an unlawful search, seizure, or interrogation is commonly referred to as the ‘fruit of the poisonous
tree’ and is generally not admissible at trial.” United States
v. Conklin, 63 M.J. 333, 334 (C.A.A.F. 2006) (citing Wong
Sun v. United States, 371 U.S. 471, 488 (1963)).

5

United States v. Richards, No. 16-0727/AF
Opinion of the Court

A search authorization, whether for a physical location or
for an electronic device, must adhere to the standards of the
Fourth Amendment of the Constitution. The Fourth
Amendment states that “no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and particularly describing the place to be searched, and the persons or things to be seized.” U.S. Const. amend. IV. This insistence on particularity is a defining aspect of search and
seizure law.
The manifest purpose of this particularity requirement was to prevent general searches. By limiting
the authorization to search to the specific areas and
things for which there is probable cause to search,
the requirement ensures that the search will be
carefully tailored to its justifications, and will not
take on the character of the wide-ranging exploratory searches the Framers intended to prohibit.

Maryland v. Garrison, 480 U.S. 79, 84 (1987). “The Fourth
Amendment requires that a search warrant describe the
things to be seized with sufficient particularity to prevent a
general exploratory rummaging in a person’s belongings.”
United States v. Carey, 172 F.3d 1268, 1272 (10th Cir. 1999).
Despite the importance of preserving this particularity
requirement, considerable support can be found in federal
law for the notion of achieving a balance by not overly restricting the ability to search electronic devices.
The prohibition of general searches is not to be confused with a demand for precise ex ante knowledge
of the location and content of evidence .... The proper metric of sufficient specificity is whether it was
reasonable to provide a more specific description of
the items at that juncture of the investigation.

United States v. Richards, 659 F.3d 527, 541 (6th Cir. 2011)
(alteration in original) (quoting United States v. Meek, 366
F. 3d 705, 716 (9th Cir. 2004)); see id. at 540–42 (court allowing the search of an entire server known to contain websites harboring child pornography). “[I]t is folly for a search
warrant to attempt to structure the mechanics of the search
and a warrant imposing such limits would unduly restrict
legitimate search objectives.” United States v. Burgess, 576
F.3d 1078, 1094–95 (10th Cir. 2009) (court upholding a warrant to search “all computer records” for evidence of drug
6

United States v. Richards, No. 16-0727/AF
Opinion of the Court

trafficking). Instead of attempting to set out bright line rules
for limiting searches of electronic devices, the courts have
looked to what is reasonable under the circumstances. “As
always under the Fourth Amendment, the standard is reasonableness.” United States v. Hill, 459 F.3d 966, 974–77
(9th Cir. 2006) (court upholding an off-site search of all of
the defendant’s computer storage media for evidence of child
pornography). 6
Searches of electronic devices present distinct issues surrounding where and how incriminating evidence may be located. While we support the notion that “warrants for computer searches must affirmatively limit the search to
evidence of specific federal crimes or specific types of material,” United States v. Riccardi, 405 F.3d 852, 862 (10th Cir.
2005), we also recognize the dangers of too narrowly limiting
where investigators can go. As stated by the United States
Court of Appeals for the Seventh Circuit, “[u]nlike a physical
object that can be immediately identified as responsive to
the warrant or not, computer files may be manipulated to
hide their true contents.” United States v. Mann, 592 F.3d
779, 782 (7th Cir. 2010). “[I]n the end, there may be no practical substitute for actually looking in many (perhaps all)
folders and sometimes at the documents contained within
those folders, and that is true whether the search is of computer files or physical files. It is particularly true with image
files.” Burgess, 576 F.3d at 1094; see also United States v.
Williams, 592 F.3d 511, 521–22 (4th Cir. 2010) (positing an
implied authorization for officers to open each file on the
computer and view its contents, at least cursorily, to determine whether it falls within the scope of the warrant’s authorization. “To be effective, such a search could not be limited to reviewing only the files’ designation or labeling,
because the designation or labeling of files on a computer
can easily be manipulated to hide their substance”). Of
course our reluctance to prescribe ex ante limitations or require particular search methods and protocols does not render them immune from an ex post reasonableness analysis.
See, e.g., United States v. Christie, 717 F.3d 1156, 1167 (10th
Cir. 2013) (“[E]ven if courts do not specify particular search
protocols up front in the warrant application process, they
retain the flexibility to assess the reasonableness of the
Obviously, what is reasonable in one instance may not be so in
another.
6

7

United States v. Richards, No. 16-0727/AF
Opinion of the Court

search protocols the government actually employed in its
search after the fact, when the case comes to court, and in
light of the totality of the circumstances.”).
In charting how to apply the Fourth Amendment to
searches of electronic devices, we glean from our reading of
the case law a zone in which such searches are expansive
enough to allow investigators access to places where incriminating materials may be hidden, yet not so broad that they
become the sort of free-for-all general searches the Fourth
Amendment was designed to prevent.
On one hand, it is clear that because criminals
can—and often do—hide, mislabel, or manipulate
files to conceal criminal activity, a broad, expansive
search of the hard drive may be required.... On the
other hand, ... granting the Government a carte
blanche to search every file on the hard drive impermissibly transforms a “limited search into a
general one.”

United States v. Stabile, 633 F.3d 219, 237 (3d Cir. 2011) (citations omitted).
Appellant argues that the November 9, 2011, authorization was overbroad because it did not contain a temporal
limitation when that information was available and known
to investigators. Applying the above Fourth Amendment
law, we conclude that the authorization did not require a
date restriction because it was already sufficiently particularized to prevent a general search. Though a temporal limitation is one possible method of tailoring a search authorization, it is by no means a requirement. Here, the
authorization and accompanying affidavit did not give authorities carte blanche to search in areas clearly outside the
scope of the crime being investigated. They were entitled to
search Appellant’s electronic media for any communication
that related to his possible violation of the Florida statute in
his relationship with AP.
We also conclude that the authorization allowed for a
search of the unallocated space and through potential
communications materials that did not have an immediately
clear date associated with them. The precise extraction
process utilized by Agent Kleeh and the accessibility of
metadata on unallocated materials was not fleshed out in
trial or anywhere on the record. However, we deduce from
8

United States v. Richards, No. 16-0727/AF
Opinion of the Court

Mr. Kleeh’s testimony that metadata for unallocated
materials often does not exist or is difficult to extract. We
conclude that the possibility that relevant communications
could have existed among the unallocated materials
provided sufficient basis to subject those materials to an
authorized and particularized search.
The record also does not disclose the origin of the first
image of child pornography encountered by Agent Nishioka.
Though he indicates he saw it in the folder of unallocated or
unattributable materials, we do not know whether the specific image was drawn from the laptop or one of the two external hard drives. A list of images compiled by the Government as potential Rule for Courts-Martial 404(b) evidence
indicates that child pornography from both the laptop and
one of the external hard drives appeared in the unallocated
folder viewed around January 4, 2012. This is supported by
testimony from Mr. Kleeh. Neither Agent Nishioka nor trial
counsel indicated any obvious delineation between materials
found on individual devices in their description of what was
contained on FDE #1. The issue of the shutdown dates of the
two loose hard drives was raised during oral argument and
addressed by both parties in subsequent motions. The FDE
lists the shutdown dates for the hard drives as 2006 and
2008, years before Appellant initiated his relationship with
AP. Assuming the shutdown dates were indicative of the
timing of their last use, these materials were outside the
scope of the search authorization, which described criminal
activity dating no earlier than approximately April 2010.
However, because images of child pornography from the laptop, with a last shutdown date in 2011, appeared in the unallocated materials Agent Nishioka searched, we conclude
that he either did discover or inevitably would have discovered child pornography that validly lay within the scope of
the search regardless of the significance of the shutdown
dates on the two loose hard drives.
Agent Nishioka’s discovery of the child pornography images within the folder of unallocated materials was consistent with Horton v. California and the plain view exception to the Fourth Amendment. 496 U.S. 128 (1990). Under
Horton, in order for the plain view exception to apply: (1) the
officer must not violate the Fourth Amendment in arriving
at the spot from which the incriminating materials can be
plainly viewed; (2) the incriminating character of the mate-

9

United States v. Richards, No. 16-0727/AF
Opinion of the Court

rials must be immediately apparent; and (3) the officer must
have lawful access to the object itself. Id. at 136–37. Here,
Agent Nishioka was lawfully searching through the extracted files based on what we have determined to be a valid authorization when he encountered what appeared to be child
pornography among the unallocated materials. Upon spotting the child pornography, he properly stopped his search
and obtained a new authorization that allowed him to search
specifically for child pornography.
We hold that the November 9, 2011, search authorization
was sufficiently particularized to avoid any violation of Appellant’s Fourth Amendment rights and uphold the military
judge’s decision not to suppress evidence derived from the
fruits of that authorization.
Decision
The decision of the United States Air Force Court of
Criminal Appeals is affirmed.

10

U NITED S TATES AIR F ORCE
C OURT OF C RIMINAL APPEALS
________________________
Misc. Dkt. No. 2017–04
________________________
James W. RICHARDS, IV
Lieutenant Colonel (O-5), U.S. Air Force, Petitioner
v.
Deborah Lee JAMES
Secretary of the Air Force
Brian S. GREENROAD
Colonel (O-6), United States Air Force
Commander, Air Force Security Forces Center
D. L. HILTON
Colonel (O-6), United States Army
Commandant, United States Disciplinary Barracks
Respondents
________________________
Review of Petition for Extraordinary Relief in the Nature of
a Writ of Mandamus
Decided 19 October 2018
________________________
Military Judge: Mark L. Allred.
Approved sentence: Dismissal, confinement for 17 years, and forfeiture
of all pay and allowances. Sentence adjudged 21 February 2013 by
GCM convened at Tyndall Air Force Base, Florida.
For Petitioner: Lieutenant Colonel Nicholas W. McCue, USAF; Lieutenant Colonel Shane A. McCammon, USAF. 1
For Respondent: Colonel Katherine E. Oler, USAF; Lieutenant Colonel
Joseph J. Kubler, USAF; Mary Ellen Payne, Esquire.

1

Petitioner’s initial petition was filed pro se.

Richards v. James, et al., Misc. Dkt. No. 2017–04
Before MAYBERRY, HARDING, and MINK, Appellate Military Judges.
Senior Judge HARDING delivered the opinion of the court, in which
Chief Judge MAYBERRY and Judge MINK joined.
________________________
This is an unpublished opinion and, as such, does not serve as
precedent under AFCCA Rule of Practice and Procedure 18.4.
________________________
HARDING, Senior Judge:
Petitioner submitted a Petition for Extraordinary Writ in the Nature of a
Writ of Mandamus alleging that Respondent’s calculation of Petitioner’s good
conduct time (GCT) confinement credits violates Article I, Section 9, Clause 3
of the United States Constitution—the Ex Post Facto Clause. To remedy the
alleged ex post facto application of the rule for GCT calculations, Petitioner
requests that this court issue a writ of mandamus ordering Respondent to
calculate his GCT credits in accordance with a prior and more favorable rule.
For the reasons set forth below, we deny the petition.
I. BACKGROUND
Contrary to his pleas, Petitioner was convicted of one specification of possession of child pornography and five specifications of indecent acts with a
male under sixteen years of age, both in violation of Article 134, Uniform
Code of Military Justice (UCMJ), 10 U.S.C. § 934; and four specifications of
failing to obey a lawful order in violation of Article 92, UCMJ, 10 U.S.C. §
892. Important to the resolution of this petition for relief, the earliest of Petitioner’s offenses were committed by him on or about 10 June 2005. On 21
February 2013, a military judge, sitting alone, sentenced Petitioner to a dismissal, seventeen years confinement, and forfeiture of all pay and allowances. The convening authority approved the adjudged sentence. This court affirmed the findings and sentence. United States v. Richards, No. ACM 38346,
2016 CCA LEXIS 285 (A.F. Ct. Crim. App. 2 May 2016) (unpub. op.), aff’d, 76
M.J. 365 (C.A.A.F. 2017), cert. denied, ___U.S.___, 138 S. Ct. 2707 (2018).
On 26 March 2013, Petitioner was transferred to the United States Disciplinary Barracks (USDB) at Fort Leavenworth, Kansas. Petitioner’s Minimum Release Date (MRD), as determined by USDB officials on 1 July 2015,
is 1 January 2026. Petitioner’s MRD was determined in part by the application of GCT credits to his sentence to confinement at a rate of five days per
month. Petitioner contends that using the rate of five days per month was an
ex post facto application of a rule changed after the dates of his offenses and
2

Richards v. James, et al., Misc. Dkt. No. 2017–04
adjudged sentence. Petitioner asserts that his MRD should have been determined by using a GCT rate of ten days per month. As the effective dates of
the military regulations establishing and changing the rules for GCT calculations are essential to evaluating Petitioner’s claim, we will briefly trace the
history of Air Force policy on this matter.
In 1964, the Air Force issued Air Force Regulation 125-30, Apprehension
and Confinement, Military Sentences to Confinement (6 Nov. 1964) [retitled
Armed Forces Joint Instruction (AFJI) 31–215, Military Sentences to Confinement (1964)], which directed GCT for sentences adjudged on or after 31
May 1951 at a rate of [t]en days for each month of the sentence for a sentence
of 10 years or more, excluding life.” Id. ¶ 13.
In 2001, the Department of Defense (DoD) issued Department of Defense
Instruction (DoDI) 1325.7, Administration of Military Correctional Facilities
and Clemency and Parole Authority (17 Jul. 2001). This issuance provided in
pertinent part that for sentences of ten years or more, prisoners would receive ten days of credit for each month of the sentence served. Id. ¶ E26.1.1.5.
This instruction applied to all DoD components to include the Department of
the Air Force. Id. ¶ 2.
In 2004, the Air Force issued Air Force Instruction (AFI) 31–205, The Air
Force Corrections System (7 Apr. 2004), which governed confinement and sentences in the Air Force. For the determination of GCT, the Air Force implemented DoDI 1325.7 as follows:
The accurate computation of inmate sentences ensures proper
administration. It is also an essential element in protecting
inmate legal rights. The confinement officer or designated corrections staff member computes sentence and Good Conduct
Time (GCT) according to DoDI 1325.7, Administration of Military Correctional Facilities and Clemency and Parole Authority
and AFJI 31–215, Military Sentences to Confinement.
AFI 31–205, ¶ 5.7.
On 23 June 2004, a little over two months after the issuance of AFI 31–
205, the Under Secretary of Defense for Personnel and Readiness (USD
(P&R)) issued, a directive-type memorandum (DTM), Change to DoD Policy
on Abatement of Sentences to Confinement, amending DoDI 1325.7. Under
this DTM, GCT would “be awarded at a rate of 5 days for each month of confinement . . . regardless of sentence or multiple sentence length.” Id. ¶ A2.2.1.
This change applied only to findings of guilt for offenses which occurred after
1 October 2004, when the DTM became effective. Id. ¶ A2.2.2.
On 17 September 2004, the USD (P&R) released another DTM, Clarification of DoD Policy on Abatement of Sentences to Confinement. This September
3

Richards v. James, et al., Misc. Dkt. No. 2017–04
DTM clarifies paragraph A2.2.2. from the June DTM by amending it as follows: “[w]ith respect to sentences adjudged prior to January 1, 2005, GCT
shall be awarded at the rates specified in DoD Instruction 1325.7, enclosure
26”—a rate of 10 days per month for sentences of 10 years or more. This
change would be incorporated in the next version of DoDI 1325.7. Id.
In March 2013, the DoD reissued DoDI 1325.7 as DoDI 1325.07, Administration of Military Correctional Facilities and Clemency and Parole Authority (11 Mar. 2013). The reissued DoDI superseded and cancelled the two USD
(P&R) DTMs issued on 23 June and 17 September 2004, but maintained the
rule that prisoners whose sentences were adjudged after 31 December 2004
would earn GCT at a rate of five days per month. DoDI 1325.07, Enclosure 2,
Appendix 3 ¶ 2.b.(2).
In June 2015, the Air Force issued AFI 31–105, Air Force Corrections System (15 Jun. 2015), which superseded AFI 31–205, dated 7 April 2004, and
contained specific provisions for sentence computation and GCT calculations:
For sentences adjudged on 26 Jul 2004 or before, contact the
USDB or AFSFC/SFC [Air Force Security Forces Center, Corrections Division] where copies of the AFJI 31–215, Armed
Forces Joint Instruction, Military Sentences to Confinement,
dated 1964 are maintained for those under its jurisdiction. For
sentences adjudged on 27 Jul 2004 or after, IAW DoDI 1325.07,
use DoD 1325.7-M, DoD Sentence Computation, Chapter 2, to
calculate sentences. In either case, use the DD Form 2710–1,
Inmate Sentence Information, or a computer-generated equivalent to show math work on sentence calculations.
NOTE: The paragraphs contained in 5.6.1. – 5.6.8.1.4. below
provide a quick reference to the format. For more in depth information, refer to the DoDI and DoDM [DoD Manual] which
take precedence.
Id. ¶ 5.6.
AFI 31–105 continues: “GCT is awarded at a rate of 5 days for each
month of confinement, and for that portion of any sentence to confinement
not expressed in full years and months (1 day for each 6-day portion of a
month, see Table 5.1.), regardless of sentence or multiple sentence length.”
Id. ¶ 5.6.2.3.
As noted above, Petitioner’s MRD was calculated on 1 July 2015 using the
GCT rate of five days per month for each month of confinement. In calendar
year 2016, Petitioner variously requested that the Commander of the Air
Force Security Forces Center, the Commander of the Air Force Installation
and Support Center, and the Air Force Clemency and Parole Board grant him
4

Richards v. James, et al., Misc. Dkt. No. 2017–04
relief from what he asserted was an inaccurate calculation of his GCT. Petitioner’s requests, whether presented as an Article 138, UCMJ, 10 U.S.C. §
938, complaint, or a clemency request, were uniformly denied.
II. DISCUSSION
At the outset we note that Petitioner does not directly challenge the legality or appropriateness of his approved sentence in this petition. Rather, as he
did in his requests to other Air Force authorities on this matter, he takes issue with the calculation of his MRD by prison officials using a GCT credit
rate of five days per month instead of ten days per month. As the issue Petitioner raises concerns a matter not directly connected to the legality or appropriateness of the approved sentence, we must first determine whether we
have jurisdiction to review this petition for an extraordinary writ.
A. Jurisdiction
Jurisdiction is a question of law we review de novo. Randolph v. HV, 76
M.J. 27, 29 (C.A.A.F. 2017) (quoting LRM v. Kastenberg, 72 M.J. 364, 367
(C.A.A.F. 2013)). 2 “The burden to establish jurisdiction rests with the party
invoking the court’s jurisdiction.” United States v. LaBella, 75 M.J. 52, 53
(C.A.A.F. 2015) (citation omitted).

In addition to arguing that military courts do not have jurisdiction to review GCT
matters on direct review under Article 66(c), UCMJ, 10 U.S.C. § 866(c), and thus do
not have authority to issue extraordinary writs for GCT matters, the Respondent
raises two additional jurisdictional bases to dismiss the petition. Citing to Moore v.
Akins, 30 M.J. 249 (C.M.A. 1990), Respondent posits that this court does not have
jurisdiction to address this writ while the case is pending at the United States Court
of Appeals for the Armed Forces (CAAF) or the United States Supreme Court. We
note that as of 13 July 2017, Petitioner’s case was no longer pending at CAAF, and on
28 June 2018 the United States Supreme Court denied certiorari. Citing to this
court’s opinions in Chapman v. United States, 75 M.J. 598 (A.F. Ct. Crim. App. 2016),
and Sutton v. United States, ___ M.J. ___, Misc. Dkt. No. 2018-01, 2018 CCA LEXIS
349 (A.F. Ct. Crim. App. 13 Jul. 2018), the Respondent argues that since Petitioner’s
court-martial has completed direct review under Article 71, UCMJ, 10 U.S.C. § 871,
and as of 27 August 2018—the date the Secretary of the Air Force ordered Petitioner’s dismissal executed the case is final under Article 76, UCMJ, 10 U.S.C. § 876,—
this court lacks jurisdiction to address or grant Petitioner’s request for extraordinary
relief. We note that as of 4 June 2018 this petition was docketed with this court, Respondent answered the petition on 21 June 2018, and Petitioner replied on 27 July
2018—all before Petitioner’s case was final under Article 76, UCMJ. We decline to
dismiss the petition on either of these jurisdictional grounds and instead deny the
petition on the merits.
2

5

Richards v. James, et al., Misc. Dkt. No. 2017–04
“The All Writs Act, 28 U.S.C. § 1651(a), grants this court authority to issue extraordinary writs necessary or appropriate in aid of its jurisdiction.”
Chapman v. United States, 75 M.J. 598, 600 (A.F. Ct. Crim. App. 2016) (citing
Loving v. United States, 62 M.J. 235, 246 (C.A.A.F. 2005)). “However, the Act
does not enlarge our jurisdiction, and the writ must be in aid of our existing
statutory jurisdiction.” Id. (citing Clinton v. Goldsmith, 526 U.S. 529, 534–35
(1999)). “The courts of criminal appeals [(CCAs)] are courts of limited jurisdiction, defined entirely by statute.” United States v. Arness, 74 M.J. 441, 442
(C.A.A.F. 2015) (citation omitted). Thus to determine whether we have authority to grant this extraordinary writ, we must determine whether the matter of GCT is within our existing statutory jurisdiction under Article 66(c),
UCMJ, 10 U.S.C. § 866(c).
The scope and meaning of Article 66(c), UCMJ, is a matter of statutory interpretation, which, as a question of law, is reviewed de novo. See United
States v. Schloff, 74 M.J. 312, 313 (C.A.A.F. 2015) (citations omitted). Article
66(c), UCMJ, establishes the jurisdiction of a CCA as follows:
In a case referred to it, the [CCA] may act only with respect to
the findings and sentence as approved by the convening authority. It may affirm only such findings of guilty, and the sentence or such part or amount of the sentence, as it finds correct
in law and fact and determines, on the basis of the entire record, should be approved. In considering the record, it may
weigh the evidence, judge the credibility of witnesses, and determine controverted questions of fact, recognizing that the trial court saw and heard the witnesses.
10 U.S.C. § 866(c).
The CAAF has recognized that the calculation of good time credit is primarily a matter for confinement officials. In United States v. Spaustat, where
the parties agreed the appellant was entitled to five days of credit per month,
but disagreed as to how it should be computed, CAAF stated:
We need not resolve the disagreements about the computation
of good time. The UCMJ and the Manual for Courts-Martial
make no provision for good time credit. The responsibility for
determining how much good time credit, if any, will be awarded
is an administrative responsibility, vested in the commander of
the confinement facility.
57 M.J. 256, 263 (C.A.A.F. 2002) (citations omitted).
The CAAF further explained “[j]udicial review of disputes about good time
credit occurs only upon application for an extraordinary writ, not on direct
review of the sentence.” Id. (citations omitted).
6

Richards v. James, et al., Misc. Dkt. No. 2017–04
In United States v. Pena, 64 M.J. 259 (C.A.A.F. 2007), an appellant challenged the authority of the DoD to establish the Mandatory Supervised Release program wherein he was required to participate in the program during
the time from his MRD until his maximum release date. In deciding that
case, the CAAF noted that “[o]n direct appeal, the scope of our review does
not extend to supervision of all aspects of the confinement and release process.” Id. at 264 (citing United States v. Towns, 52 M.J. 830, 833 (A.F. Ct.
Crim. App. 2000)). The CAAF further explained:
Our review of post-trial confinement and release conditions on
direct appeal is limited to the impact of such conditions on the
findings and the sentence. Accordingly, our review in the present appeal focuses on whether the post-trial conditions at issue: (1) constituted cruel or unusual punishment or otherwise
violated an express prohibition in the UCMJ; (2) unlawfully increased Appellant’s punishment; or (3) rendered his guilty plea
improvident.
Id. (emphasis added) (citations omitted); see also United States v. White, 54
M.J. 469, 472 (C.A.A.F. 2001) (a CCA has the “authority to ensure that the
severity of the adjudged and approved sentence has not been unlawfully increased by prison officials . . . .” (citation omitted)).
Applying the narrow framework of Pena, we note Petitioner has not asserted the calculation of GCT in his case constitutes cruel or unusual punishment or a violation of an express prohibition of the UCMJ. Further, Petitioner pleaded not guilty so the providence of a guilty plea is not at issue. Petitioner, however, framing the GCT calculation as a violation of the Ex Post
Facto Clause, has raised an issue as to whether the GCT credit is being calculated in a manner that has unlawfully increased Petitioner’s punishment.
Were this petition merely about whether or not prison officials had
abused their discretion in denying Petitioner some amount of GCT credit due
to their determination that Petitioner had violated confinement rules, for example, we might well agree with Respondent that such a dispute would lie
outside of our jurisdiction. However, as the gravamen of this petition is that
Petitioner’s MRD of 1 January 2026 was wrongly determined by prison officials and that the determination adds 1020 days to the total number of days
of confinement to be served by Petitioner, we conclude that we have the authority to review whether Petitioner’s approved sentence to confinement is
being unlawfully increased.
B. Writ of Mandamus
Petitioner seeks relief through a writ of mandamus. A writ of mandamus
is used, inter alia, “to compel [officers and commanders] to exercise [their]
7

Richards v. James, et al., Misc. Dkt. No. 2017–04
authority when it is [their] duty to do so.” Dew v. United States, 48 M.J. 639,
648 (A. Ct. Crim. App. 1998) (quoting Roche v. Evaporated Milk Ass’n, 319
U.S. 21, 26 (1943)). To prevail on a writ of mandamus, the petitioner “must
show that: (1) there is no other adequate means to attain relief; (2) the right
to issuance of the writ is clear and indisputable; and (3) the issuance of the
writ is appropriate under the circumstances.” Hasan v. Gross, 71 M.J. 416,
418 (C.A.A.F. 2012) (citing Cheney v. United States Dist. Court, 542 U.S. 367,
380–381 (2004)). The Respondent has not raised failure to exhaust as a reason to deny the petition. We are satisfied that Petitioner has exhausted his
administrative options and has sufficiently shown there is no other adequate
means to attain relief. 3 Whether Petitioner’s right to issuance of the writ is
clear and indisputable and the writ is appropriate under the circumstances
depends on whether a violation of the Ex Post Facto Clause occurred.
C. Ex Post Facto
The Ex Post Facto Clause provides: “No . . . ex post facto Law shall be
passed.” U.S. CONST. art I, § 9, cl. 3. “The ex post facto prohibition forbids the
Congress and the States to enact any law which imposes a punishment for an
act which was not punishable at the time it was committed; or imposes additional punishment to that then prescribed.” Weaver v. Graham, 450 U.S. 24,
28 (1981) (footnotes omitted) (citations and internal quotation marks omitted).
In Weaver, the Supreme Court addressed post-sentencing changes to formulas for calculating “gain time” confinement credit and found that such
changes were unconstitutional as an ex post facto law when applied to that
petitioner, whose crime was committed before the statute was enacted. Id. at
28–36. In finding a violation, the Court noted “two critical elements must be
present for a criminal or penal law to be ex post facto: it must be retrospective, that is, it must apply to events occurring before its enactment, and it
must disadvantage the offender affected by it.” Id. at 29 (footnotes omitted)
(citations omitted).
We do not mean to infer that this court is Petitioner’s only option for relief. The Supreme Court has stated that the federal district courts have jurisdiction over habeas
corpus petitioners who are imprisoned as a result of court-martial convictions: “The
federal civil courts have jurisdiction over such applications. By statute, Congress has
charged them with the exercise of that power.” Burns v. Wilson, 346 U.S. 137, 139
(1953) (footnote omitted).
3

8

Richards v. James, et al., Misc. Dkt. No. 2017–04
The linchpin of Petitioner’s claim is that the application of GCT credits to
his sentence to confinement at a rate of five days per month is retrospective.
Petitioner puts forth a multi-faceted argument to advance this claim. First,
Petitioner argues that Congress specifically delegated authority to regulate
the confinement of military prisoners, to include prescribing policy for the
administration of GCT, to the Secretaries of the Armed Forces, not the Secretary of Defense (SECDEF), and therefore asserts the 2004 DTMs were effectively ultra vires and void ab initio. Building on the conclusion that Air Force
policy regarding GCT was the exclusive province of the Air Force, Petitioner
argues that the Air Force rules in effect on 10 June 2005, the time of his earliest offense, determine Petitioner’s GCT. As of 10 June 2005, AFI 31–205,
dated 7 April 2004, was in force and implemented both DoDI 1325.7 and
AFJI 31–215, both of which included a provision awarding GCT at a rate of
ten days per month as of the issuance date of AFI 31–205.
Petitioner argues that this rate of ten days per month could only be
changed by the Air Force, not by the DTMs. Thus, according to Petitioner,
GCT at a rate of ten days per month should be applied to his sentence—the
rate in effect at the time of his earliest offense and the date of his adjudged
sentence. Petitioner asserts his GCT is instead being calculated using AFI
31–105, dated 15 June 2015, and that this violates the Ex Post Facto Clause
as applied to him. Petitioner argues in the alternative that the 2004 DTMs,
even if controlling, are facially unconstitutional in violation of the Ex Post
Facto Clause. 4
Petitioner’s arguments, although not identical, bear a striking resemblance to ones made by the petitioner in Valois v. Commandant, USDB—Fort
Leavenworth, No. 13-3029-KHV, 2015 U.S. Dist. LEXIS 137046 (D. Kan.
2015). Like Petitioner, Valois was court-martialed by the Air Force, convicted, received a lengthy sentence to confinement, and transferred to the USDB
to serve his sentence. Id. at *2–4. Valois’ offenses, like those of Petitioner, occurred after the DTMs were in effect. Id. Valois filed a pro se petition for a
writ of habeas corpus with the United States District Court for the District of
Kansas challenging the amount of GCT that would be administratively deducted from his sentence. Id. at *1. Valois, like Petitioner, contended he was
entitled to GCT credit of ten days rather than five days per month. Id. at *3–
We have considered and reject this argument, which neither requires additional
analysis nor warrants relief. See United States v. Matias, 25 M.J. 356, 363 (C.M.A.
1987). (“[W]e are aware of no requirement of law that appellate courts in general or a
court of military review in particular must articulate its reasoning on every issue
raised by counsel.” (citation omitted)).
4

9

Richards v. James, et al., Misc. Dkt. No. 2017–04
4. Specifically, Valois also contended that the Secretary of the Air Force (SECAF) had the exclusive authority to determine the award of GCT, did so, and
that earlier Air Force publications indicating a rate of ten days per month
controlled in his case. Id. Valois argued that later amendments or modifications to those Air Force publications, specifically the 2004 DTMs, were either
invalid or had expired. Id. After an exhaustive trek through what the District
Court described as a “military labyrinth of regulations” and application of the
deferential framework provided by Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837 (1984), 5 to its review of the DoD and Air
Force regulations at issue, the District Court reached a succinct conclusion:
In sum, the military’s view that the 2004 DTM is still valid is a
reasonable interpretation by the DoD within its statutory authority to administer military correctional facilities. Since this
interpretation is not clearly erroneous or arbitrary, this Court
finds that the 2004 DTM and the Air Force’s deference to DoDI
1325.7, now DoDI 1325.07, remains valid and that any potential GCT for Valois is limited to five days per month.
Valois, 2015 U.S. Dist. LEXIS 137046, at *7, *27.
We are persuaded by the analysis underpinning the District Court’s conclusions that: (1) the 2004 DTMs directing that GCT would “be awarded at a
rate of 5 days for each month of confinement . . . regardless of sentence or
multiple sentence length,” remained in full force until superseded in March
2013 when DoDI 1325.07 was issued and incorporated the rule; (2) the Air

5

In Chevron, the Supreme Court stated:
The power of an administrative agency to administer a congressionally created . . . program necessarily requires the formulation of policy
and the making of rules to fill any gap left, implicitly or explicitly, by
Congress. If Congress has explicitly left a gap for the agency to fill,
there is an express delegation of authority to the agency to elucidate
a specific provision of the statute by regulation. Such legislative regulations are given controlling weight unless they are arbitrary, capricious, or manifestly contrary to the statute. Sometimes the legislative
delegation to an agency on a particular question is implicit rather
than explicit. In such a case, a court may not substitute its own construction of a statutory provision for a reasonable interpretation
made by the administrator of an agency.

467 U.S. at 843–44 (alteration in original) (footnotes omitted) (internal quotation
omitted).

10

Richards v. James, et al., Misc. Dkt. No. 2017–04
Force’s deference 6 to the DoD publications remained valid; and (3) any potential GCT for Valois was limited to five days per month.
In reaching its conclusions regarding the enduring validity7 and applicability of the 2004 DTMs to the Air Force, the District Court found no statutory basis to conclude that GCT policy was or is expressly reserved to the Service Secretaries and that existing statutes did “not prohibit the DoD from establishing superior corrections policy” which the component service would be
required to implement. Id. at *18–19.
In order to avoid the application of the DTMs to his case, Petitioner asserts that the authority regarding the establishment, organization, and administration of military correctional facilities and parole has been expressly
reserved by statute to the individual Service Secretaries and not the
SECDEF. Thus, Petitioner argues, the statutory authority to establish GCT
rules for Air Force offenders belongs solely to the SECAF, and therefore, the
DTM changes, without timely action taken by the SECAF to adopt them, do
not apply to him. We disagree.
The statutory provisions cited by Petitioner do not directly address GCT. 8
Further, even assuming GCT were directly addressed, the statutes cited provide only permissive authorities and do not expressly reserve the authorities
to a Service Secretary. The provisions cited by Petitioner must be interpreted
in light of the whole of the statute. In pertinent part, we note that the
SECDEF “is the principal assistant to the President in all matters relating to
the Department of Defense” and “[s]ubject to the direction of the President . .
. he has authority, direction, and control over the Department of Defense.” 10
U.S.C. § 113(b). Unless preempted by the President, the SECDEF has plenaThe District Court characterized the Air Force’s adherence to the DTMs as “deference.” Valois, 2015 U.S. Dist. LEXIS 137046, at *27. We unequivocally state that the
Air Force was obliged to follow the DTMs.

6

Although not raised by Petitioner, we note that Valois also addressed whether or
not the DTMs were continuously in effect because they were not incorporated into a
DoD issuance within 180 days as required by DoD policy. Id. at *25–26. The District
Court concluded “[t]he military’s regulatory scheme did not void DTMs after 180
days. Rather, as a matter of administrative procedure, it established a policy that
DTMs be incorporated into regulations to assist in internally updating DoD issuances.” Id. at *26. We agree.
7

“The Secretaries concerned may provide for the establishment of such military correctional facilities as are necessary for the confinement of offenders . . . .” 10 U.S.C. §
951(a). The “Secretary concerned may provide a system of parole for offenders . . . .”
10 U.S.C. § 952(a).

8

11

Richards v. James, et al., Misc. Dkt. No. 2017–04
ry authority over all DoD matters. While the statutes cited by Petitioner do
provide express authority to individual Service Secretaries, they do not divest
the SECDEF of plenary authority over the DoD. “Subject to the authority,
direction, and control of the Secretary of Defense . . . the Secretary of the Air
Force is responsible for, and has the authority necessary to conduct, all affairs of the Department of the Air Force . . . .” 10 U.S.C. § 8013(b). As stated
in Valois, given the statutory hierarchy defining the relationship between the
Air Force and the DoD, “as a matter of law, the Air Force is obligated to follow the policies and procedures of the DoD.” Valois, 2015 U.S. Dist. LEXIS
137046, at *18.
When the 2004 DTMs changed the calculation of GCT from ten days to
five days per month effective 1 October 2004, the change applied to the Air
Force. On 10 June 2005, the earliest date of Petitioner’s offenses, and to the
present date, DoD and Air Force policy was and is that GCT “is awarded at a
rate of 5 days for each month of confinement . . . regardless of sentence or
multiple sentence length.” This rule change was not applied retrospectively to
Petitioner and thus did not violate the Ex Post Facto Clause. Petitioner has
failed to show the right to issuance of the writ is clear and indisputable and
appropriate under the circumstances.
III. CONCLUSION
Accordingly, the petition for extraordinary relief in the nature of a writ of
mandamus is hereby DENIED.
FOR THE COURT

CAROL K. JOYCE
Clerk of the Court

12

United States Court of Appeals
for the Armed Forces
Washington, D.C.

James W.
Richards IV,

USCA Dkt. No. 19-0093/AF
Crim.App. No. 2018-07
Appellant

v.

ORDER

Deborah Lee
James,
Secretary of the United States Air Force,
Brian S.
Greenroad, Colonel, Commander,
Air Force Security Forces Center,
and
D.L. Hinton,
Colonel, Commandant,
United States Disciplinary Barracks,
Appellees

On consideration of the writ-appeal petition, it is, by the Court, this 31st day
of January, 2019,
ORDERED:
That the writ-appeal petition is hereby dismissed for lack of jurisdiction.

U.S. v. Richards IV, Docket No. 19-0093/AF

For the Court,

/s/ Joseph R. Perlak
Clerk of the Court

cc:

The Judge Advocate General of the Air Force
Appellate Defense Counsel (McCammon)
Appellate Government Counsel (Payne)

2

United States Court of Appeals
for the Armed Forces
Washington, D.C.

James W.
Richards IV,

USCA Dkt. No. 19-0093/AF
Crim.App. No. 2018-07
Appellant

v.

ORDER

Deborah Lee
James,
Secretary of the United States Air Force,
Brian S.
Greenroad, Colonel, Commander,
Air Force Security Forces Center,
and
D.L. Hinton,
Colonel, Commandant,
United States Disciplinary Barracks,
Appellees

On consideration of Appellant’s motion for reconsideration of this Court’s
order issued January 31, 2019, it is, by the Court, this 1st day of March, 2019,
ORDERED:
That the petition for reconsideration is hereby denied.

U.S. v. Richards IV, Docket No. 19-0093/AF

For the Court,*

/s/ Joseph R. Perlak
Clerk of the Court

____________
* While captioned as a motion for reconsideration, the pleading invokes C.A.A.F.
R.31, Petition for Reconsideration, and has been construed by the Court as such.

cc:

The Judge Advocate General of the Air Force
Appellate Defense Counsel (McCammon)
Appellate Government Counsel (Payne)

2

